Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


    MISSOURI CLAIMED FEDERAL
       REIMBURSEMENT FOR
     UNALLOWABLE PERSONAL
      CARE SERVICES CLAIMS
        SUBMITTED BY THE
         WHOLE PERSON,
         INCORPORATED

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                       March 2013
                                                      A-07-11-03170
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In Missouri, the Department of Social Services (State agency) administers the Medicaid
program. Responsibility for the administration of personal care services at the State level is
shared between the State agency and the Department of Health and Senior Services (DHSS). In
general, the State agency makes Medicaid eligibility determinations, processes claims for
payment, and reports expenditures for Federal reimbursement. In turn, DHSS makes personal
care services eligibility assessments, performs case management services, oversees development
of the plan of care, and conducts programmatic and operational oversight. During the period
October 1, 2008, through June 30, 2009, the State agency claimed approximately $232 million
(approximately $167 million Federal share) for personal care services. The State agency claims
Medicaid expenditures, including those associated with personal care services, on the Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program, Form CMS-64
(CMS-64 report).

Pursuant to 42 CFR § 440.167, personal care services may be provided to individuals who are
not inpatients at a hospital or residents of a nursing facility, an Intermediate Care Facility for
Individuals with Intellectual Disabilities, or an Institution for Mental Diseases. The services
must be authorized by a physician pursuant to a plan of treatment or, at the State’s option,
otherwise authorized in accordance with a plan of care approved at the State level. Examples of
personal care services include, but are not limited to, meal preparation, shopping, grooming, and
bathing.

The Whole Person, Incorporated (Whole Person), is a personal care services provider
headquartered in Kansas City, Missouri. During the period October 1, 2008, through June 30,
2009, the State agency claimed approximately $6.8 million (approximately $4.9 million Federal
share) for personal care services reimbursed to Whole Person.

Each claim for personal care services that a provider submits to the State agency for payment can
include multiple line items, each of which represents a service by a particular personal care
services provider delivered to one beneficiary. For this audit, we reviewed a random sample of
100 line items associated with personal care services claims submitted by Whole Person to the
State agency for reimbursement.




                                                 i
OBJECTIVE

Our objective was to determine whether the State agency claimed Federal reimbursement for
personal care services claims submitted by Whole Person that complied with Federal and State
requirements.

SUMMARY OF FINDINGS

For the period October 1, 2008, through June 30, 2009, the State agency claimed Federal
reimbursement for personal care services submitted by Whole Person that did not comply with
all Federal and State requirements. Of the 100 line items in our sample, 91 complied with
Federal and State requirements, but 9 others did not.

Of the nine line items that did not comply, four contained more than one deficiency:

   •   For six of the line items, an assessment or reassessment was not performed within
       required timeframes.

   •   For six of the line items, plans of care were either missing or not approved.

   •   For one line item, Whole Person could not furnish documentation supporting that the
       consumer (i.e. beneficiary) of personal care services had been trained, as specified in
       State regulations.

Using our sample results, we estimated that the State agency claimed $143,397 (Federal share) in
reimbursement for personal care services submitted by Whole Person that did not comply with
Federal and State requirements.

The errors in the nine line items occurred because the State agency, DHSS, and Whole Person
did not adequately monitor the personal care services program to ensure that claims for Federal
reimbursement complied with certain Federal and State requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $143,397 to the Federal Government and

   •   work with DHSS and Whole Person to improve their policies and procedures for
       monitoring the personal care services program for compliance with Federal and State
       requirements.




                                                ii
THE WHOLE PERSON, INCORPORATED, COMMENTS

In written comments on our draft report, Whole Person agreed with our finding regarding the
lack of documentation supporting that the consumer of personal care services had been trained as
specified in State regulations. Whole Person also commented on another finding (involving an
uncertified timesheet) that we have removed from this final report, but did not comment on our
other findings.

OFFICE OF INSPECTOR GENERAL RESPONSE TO
THE WHOLE PERSON, INCORPORATED, COMMENTS

Nothing in Whole Person’s comments caused us to change our findings or recommendations to
the State agency. As noted below, we revised certain findings and the dollar amount in our first
recommendation based on comments and additional documentation provided by the State
agency.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency agreed with our second
recommendation and described corrective actions that it had taken or planned to take, but it
disagreed with our first recommendation regarding the refund to the Federal Government.
Specifically, the State agency said that (1) we misunderstood Missouri’s reassessment
requirements; (2) the allegations of noncompliance with State rules did not warrant recoupments
under Federal or State laws; (3) it has located and provided us with additional documentation
that was not considered in the draft report and that warrants a decrease of the recommended
disallowance; and (4) the low rates of noncompliance that we identified, combined with Whole
Person’s record as “… a generally compliant provider with little history of prior sanctions,”
made it inappropriate for us to extrapolate (that is, project from a statistical sample) our findings
to the larger population when calculating our questioned costs.

After reviewing the State agency’s comments and the additional documentation that the State
agency provided separately, we revised some of our findings and the dollar amount in our first
recommendation. We maintain that our other findings (the nine line items that did not comply
with Federal and State requirements) and the associated recommendations remain valid. The fact
that Federal regulations and the State plan do not always provide detailed specifications
regarding the administration and provision of personal care services, or are sometimes silent as
to specific requirements for those services, does not take precedence over specific requirements
in State laws and regulations. We cited the specific State requirements in developing our
findings. Further, the methodology we used to select the sample and the methodology we used
to evaluate the results of that sample resulted in an unbiased extrapolation (estimate) of the State
agency’s personal care services. In addition, courts have long approved the validity of sampling
and extrapolation as part of audits in connection with Federal health programs.




                                                 iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION........................................................................................................................1

          BACKGROUND ...............................................................................................................1
              Medicaid Program .................................................................................................1
              Missouri’s Medicaid Program ...............................................................................1
              Missouri’s Personal Care Services Program .........................................................1
              Federal and State Requirements Related to Personal Care Services .....................2
              The Whole Person, Incorporated ...........................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................3
               Objective ................................................................................................................3
               Scope ......................................................................................................................3
               Methodology ..........................................................................................................4

FINDINGS AND RECOMMENDATIONS ..............................................................................5

          UNALLOWABLE LINE ITEM COSTS...........................................................................5
              Assessment or Reassessments Not Performed Timely ..........................................5
              Missing or Unapproved Plans of Care ...................................................................6
              Beneficiary Not Trained ........................................................................................7

          PERSONAL CARE SERVICES PROGRAM NOT ADEQUATELY MONITORED ....7

          EFFECT OF ERRORS IN PERSONAL CARE SERVICES PROGRAM .......................7

          RECOMMENDATIONS ..................................................................................................8

          THE WHOLE PERSON, INCORPORATED, COMMENTS .........................................8

          OFFICE OF INSPECTOR GENERAL RESPONSE TO
            THE WHOLE PERSON, INCORPORATED, COMMENTS .....................................8

          STATE AGENCY COMMENTS AND
            OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................8
               Requirements for Performance of Assessments and Reassessments .....................9
               Noncompliance With State-Imposed Technical Requirements .............................9
               Missing Documentation Provided........................................................................10
               Statistical Sampling Methodology .......................................................................11




                                                                    iv
APPENDIXES

    A: SAMPLING METHODOLOGY

    B: SAMPLE RESULTS AND ESTIMATES

    C: RESULTS FOR EACH SAMPLED ITEM

    D: THE WHOLE PERSON, INCORPORATED, COMMENTS

    E: STATE AGENCY COMMENTS




                                v
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Missouri’s Medicaid Program

In Missouri, the Department of Social Services (State agency) administers Medicaid. The State
agency claims Medicaid expenditures, including those associated with personal care services, on
the Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program, Form
CMS-64 (CMS-64 report). The CMS-64 report shows Medicaid expenditures for the quarter
being reported and any prior-period adjustments. It also accounts for any overpayments,
underpayments and refunds received by the State agency.

The Federal Government’s share of costs is known as the Federal medical assistance percentage
(FMAP). For the period October 1, 2008, through March 31, 2009, the FMAP rate in Missouri
was 71.24 percent. For the period April 1, 2009, through June 30, 2009, the amount was
increased to 73.27 percent. 1

Missouri’s Personal Care Services Program

In Missouri, responsibility for the administration of personal care services at the State level is
shared between the State agency and the Department of Health and Senior Services (DHSS). In
general, the State agency makes Medicaid eligibility determinations, processes claims for
payment, and reports expenditures for Federal reimbursement. By formal agreement with the
State agency, 2 DHSS develops plans of care for beneficiaries, authorizes services, and performs
case management. More specifically, DHSS performs reviews that include assessments and
reassessments of the necessity for, appropriateness of, and adequacy of the in-home and
consumer-directed personal care services that beneficiaries receive.




1
 Pursuant to the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5, as amended by
P.L. No. 111-226, States’ FMAPs were temporarily increased for the period October 1, 2008, through June 30, 2011.
2
    The agreement was effective on July 1, 2005.
                                                       1
All potential personal care services providers must submit a proposal to DHSS outlining their
business practices and demonstrating an ability to serve the needs of the beneficiaries in
accordance with applicable Federal and State requirements.

For a Medicaid beneficiary to qualify for personal care services, DHSS must assess the
beneficiary for eligibility for personal care services and the required level of care, approve the
services, and provide case management. If the beneficiary meets all of the eligibility and
assessment criteria, DHSS develops an initial plan of care to authorize these services.

During the period October 1, 2008, through June 30, 2009, the State agency claimed
approximately $232 million (approximately $167 million Federal share) for personal care
services.

Federal and State Requirements Related to Personal Care Services

DHSS and the providers must comply with Federal and State requirements in determining
whether beneficiaries are eligible for personal care services. Pursuant to section 1905(a)(24) of
the Act and implementing Federal regulations (42 CFR § 440.167), personal care services must
be (1) authorized for an individual by a physician in a plan of treatment or in accordance with a
plan of care approved by the State; (2) provided by an individual who is qualified to provide
such services and who is not a member of the individual’s family; 3 and (3) furnished in a home
or, at the State’s option, in another location.

State regulations at 13 Code of State Regulations (CSR) § 70-91.010 state: “Personal care
services are authorized by a physician in accordance with a plan of care or otherwise authorized
in accordance with a service plan approved by the state.” This regulation also states, as quoted
below:

        (1) Persons Eligible for Personal Care Services ….

             (B) Obtaining Personal Care Services ….

                  2. The personal care plan will be developed in collaboration with and
                  signed by the recipient. The plan will include a list of tasks to be
                  performed, weekly schedule of service delivery, and the maximum
                  number of units of service for which the recipient is eligible per month.

The Whole Person, Incorporated

The Whole Person, Incorporated (Whole Person), is a personal care services provider
headquartered in Kansas City, Missouri. During the period October 1, 2008, through June 30,


3
 There are no Federal requirements for attendant qualifications. However, States are required to develop
qualifications or requirements for attendants to ensure quality of care.
                                                        2
2009, the State agency claimed approximately $6.8 million (approximately $4.9 million Federal
share) for personal care services reimbursed to Whole Person.

Missouri identifies four types of personal care services: basic, advanced, authorized nurse visit,
and consumer-directed services. Of these, Whole Person provides only consumer-directed
services, which are those in which the consumer (i.e. the beneficiary) directs his or her care by
hiring, training, supervising, and directing the service worker.

We separately reviewed Missouri’s personal care services program on a statewide basis (less
those services claimed by Whole Person) in a related audit (A-07-11-03171).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal reimbursement for
personal care services claims submitted by Whole Person that complied with Federal and State
requirements.

Scope

Our audit period covered October 1, 2008, through June 30, 2009. During this period, the State
agency claimed personal care services costs totaling approximately $6.8 million (approximately
$4.9 million Federal share) submitted by Whole Person.

Each claim for personal care services that a provider submits to the State agency for payment can
include multiple line items, each of which represents a service by a particular personal care
services provider delivered to one beneficiary. Our sample frame consisted of 13,945 line items
totaling $6,837,379 for claims that the State agency processed and claimed for personal care
services submitted by Whole Person (Appendix B). 4

We did not review the overall internal control structure of either the State agency, DHSS, or
Whole Person. We limited our internal control review to those controls related to our objective.

We conducted fieldwork at the State agency in Jefferson City, Missouri, at Whole Person’s
offices in Kansas City, Missouri, and at Whole Person’s facilities in Independence and
Gladstone, Missouri.




4
    We excluded line items in which the net amount was zero because of factors such as adjustments.

                                                          3
Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal and State laws, regulations, and guidance;

    •   held discussions with CMS, State agency, and DHSS officials to gain an understanding of
        the personal care services program;

    •   held discussions with Whole Person officials to gain an understanding of the controls
        through which it manages and monitors its personal care services program;

    •   created a sample frame of 13,945 line items totaling $6,837,379 for claims that the State
        agency processed and claimed for personal care services submitted by Whole Person
        (Appendix A);

    •   selected a random sample of 100 line items (Appendix A), for which we

        o analyzed Medicaid claim data to determine whether each beneficiary was residing in
          a hospital, a nursing facility, an Intermediate Care Facility for Individuals with
          Intellectual Disabilities, 5 or an Institution for Mental Diseases on the date of service;

        o analyzed Medicaid claim data to assess whether the claims exceeded the monthly
          authorized units of the plan of care;

        o reviewed Whole Person’s documentation supporting each line item;

        o determined whether the beneficiary required an institutional level of care;

        o determined whether the plan of care was supported by an assessment/reassessment
          and was properly authorized;

        o determined whether the service workers delivering personal care services to
          beneficiaries were qualified and properly screened; and

        o determined whether the beneficiaries receiving consumer-directed services were
          properly trained;

    •   estimated the unallowable Medicaid personal care service costs from the 13,945 line
        items (Appendixes A and B); and

    •   discussed the results of our review with State agency, DHSS, and Whole Person officials.

5
 Changes in terminology are based on Rosa’s Law (P.L. No. 111-256). For more information see CMS Final Rule,
77 Fed. Reg. 29002, 29021, and 29028 (May 16, 2012).
                                                     4
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

For the period October 1, 2008, through June 30, 2009, the State agency claimed Federal
reimbursement for personal care services submitted by Whole Person that did not comply with
all Federal and State requirements. Of the 100 line items in our sample, 91 complied with
Federal and State requirements, but 9 others did not.

Of the nine line items that did not comply, four contained more than one deficiency:

   •   For six of the line items, an assessment or reassessment was not performed within
       required timeframes.

   •   For six of the line items, plans of care were either missing or not approved.

   •   For one line item, Whole Person could not furnish documentation supporting that the
       consumer (i.e. beneficiary) of personal care services had been trained, as specified in
       State regulations.

Details on the nine line items that did not comply with Federal and State requirements appear in
Appendix C.

Using our sample results, we estimated that the State agency claimed $143,397 (Federal share) in
reimbursement for personal care services submitted by Whole Person that did not comply with
Federal and State requirements (Appendix B).

The errors in the nine line items occurred because the State agency, DHSS, and Whole Person
did not adequately monitor the personal care services program to ensure that claims for Federal
reimbursement complied with certain Federal and State requirements.

UNALLOWABLE LINE ITEM COSTS

Assessments or Reassessments Not Performed Timely

Federal regulations (42 CFR § 440.167(a)(1)) require that personal care services be “[a]uthorized
for the individual by a physician in accordance with a plan of treatment or (at the option of the
State) otherwise authorized for the individual in accordance with a service plan approved by the




                                                5
State ….” 6 In addition, section 2497.1 of the CMS State Medicaid Manual states that
expenditures require adequate supporting documentation to be allowable for Federal
reimbursement.

Missouri Revised Statute § 208.930(8)(1) makes provisions for annual reevaluation 7 of
continued eligibility and necessity for personal care services and for adjustments to or
elimination of services in the plan of care accordingly. In addition to the statutory requirement
for an annual reassessment, State regulations at 19 CSR §§ 15-8.200 (4) and (7) also reinforce
the need for an annual reassessment that is reflected in the plan of care.

For 6 of the 100 line items sampled, an assessment or reassessment was not performed within
required timeframes. Specifically, the assessments or reassessments for six line items were dated
more than 1 year before the date of the plan of care for these beneficiaries. (Five of these six line
items had not had a reassessment for more than 2 years before the dates of the plan of care, and
of those, one line item had not had a reassessment for more than 5 years before the date of the
plan of care.)

Because the six line items did not have documentation supporting that assessments or
reassessments had been performed within 1 year of the date of the beneficiaries’ plans of care,
these line items were not allowable for Federal reimbursement.

Missing or Unapproved Plans of Care

Federal regulations (42 CFR § 440.167(a)(1)) state: “(a) Personal care services means services
… (1) [a]uthorized for the individual by a physician in accordance with a plan of treatment or (at
the option of the State) otherwise authorized for the individual in accordance with a service plan
approved by the State ….” 8

For 6 of the 100 line items sampled, plans of care were missing or not approved pursuant to
Federal and State requirements. Specifically, four line items sampled had portions of the plans
of care that could not be located by either DHSS or Whole Person. In addition, two line items
sampled had plans of care that were not approved.

Because the six line items had plans of care that were missing or not approved, they were not
allowable for Federal reimbursement.



6
 Federal and State requirements for personal care services use the terms “plan of treatment,” “service plan,” “care
plan,” and “plan of care” in essentially synonymous ways. In this report, we use “plan of care” except when
quoting.
7
 Relevant criteria use the terms “reevaluate” and “reassess” as synonyms. In this report, we will say “reassessment”
except when quoting.
8
    Other criteria related to plans of care included 19 CSR §§ 15-8.200(4)(B)(2) and (6).

                                                            6
Beneficiary Not Trained

State regulations (19 CSR § 15-8.400(4)) state:

       In addition to the above requirements, vendors shall be responsible, directly or by
       contract, for the following: …

       (B) Training and orientation of consumers in the skills needed to recruit, employ,
       instruct, supervise and maintain the services of attendants including, but not
       limited to:

       1. Assisting consumers in the general orientation of attendants as requested by
          the consumer;

       2. Preparation of time sheets;

       3. Identification of issues that would be considered fraud of the program;

       4. Allowable and non-allowable tasks;

       5. Rights and responsibilities of the attendant; and

       6. Identification of abuse, neglect, and/or exploitation ….

For 1 of the 100 line items sampled, Whole Person could not furnish documentation supporting
that the beneficiary receiving consumer-directed services had been trained as specified in State
regulations. Accordingly, this line item was not allowable for Federal reimbursement.

PERSONAL CARE SERVICES PROGRAM NOT ADEQUATELY MONITORED

The errors in the nine line items occurred because the State agency, DHSS, and Whole Person
did not adequately monitor the personal care services program to ensure that claims for Federal
reimbursement complied with certain Federal and State requirements. Neither the State
agency’s, DHSS’s, nor Whole Person’s policies and procedures were sufficient to ensure that the
personal care services program was adequately monitored. Specifically, the policies and
procedures could be improved to ensure that the assessments and plans of care were completed
correctly and within required timeframes, that beneficiaries were trained, and that all necessary
documentation was maintained.

EFFECT OF ERRORS IN PERSONAL CARE SERVICES PROGRAM

Of the 100 personal care services line items in our sample, 9 line items did not comply with
Federal and State requirements. Based on our sample results, we estimated that the State agency
claimed $143,397 (Federal share) in unallowable personal care service expenditures submitted
by Whole Person (Appendix B).
                                                  7
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $143,397 to the Federal Government and

   •   work with DHSS and Whole Person to improve their policies and procedures for
       monitoring the personal care services program for compliance with Federal and State
       requirements.

THE WHOLE PERSON, INCORPORATED, COMMENTS

In written comments on our draft report, Whole Person agreed with our finding regarding the
lack of documentation supporting that the consumer of personal care services had been trained as
specified in State regulations. Whole Person also commented on another finding (involving an
uncertified timesheet) that we have removed from this final report, but did not comment on our
other findings.

OFFICE OF INSPECTOR GENERAL RESPONSE TO
THE WHOLE PERSON, INCORPORATED, COMMENTS

Nothing in Whole Person’s comments caused us to change our findings or recommendations to
the State agency. As noted below, we revised certain findings and the dollar amount in our first
recommendation based on comments and additional documentation provided by the State
agency.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency agreed with our second
recommendation and described corrective actions that it had taken or planned to take, but it
disagreed with our first recommendation regarding the refund to the Federal Government. A
summary of the State agency’s comments and our response follows. The State agency organized
its comments on our first recommendation along thematic lines rather than along the lines of our
findings, and we have followed that structure in developing this summary.

The State agency’s comments appear in their entirety as Appendix E.

After reviewing the State agency’s comments and the additional documentation that the State
agency provided separately, we revised some of our findings and the dollar amount in our first
recommendation. We maintain that our other findings (the nine line items that did not comply
with Federal and State requirements) and the associated recommendations remain valid.




                                                8
Requirements for Performance of Assessments and Reassessments

State Agency Comments

The State agency said that we misunderstood Missouri’s assessment requirements. The State
agency said that neither Federal regulations nor the State plan requires annual reassessments:
“The state plan section covering consumer-directed personal care services, like the federal
regulations, is silent about the need or timing of reassessments.” The State agency also said that
our findings did not establish that services were provided to ineligible beneficiaries and added
that it “… has recently taken steps to ensure that reassessments are completed annually.”

Office of Inspector General Response

We disagree with the State agency’s assertion that we misunderstood Missouri’s assessment
requirements. Although neither Federal regulations nor the State plan specifically require an
annual reassessment, other Missouri requirements mandate annual reassessments.

As cited earlier, Missouri Revised Statute § 208.930(8)(1) makes provisions for annual
reevaluation of continued eligibility and necessity for personal care services and for adjustments
to or elimination of services in the plan of care accordingly. Additionally, 19 CSR §§ 15-8.200
(4) and (7) reinforce the need for an annual reassessment that is reflected in the plan of care.

Accordingly, the fact that certain other Federal regulations and the State plan are silent as to
specific requirements does not take precedence over specific requirements in State laws and
regulations. To provide a valid and payable service, personal care services must meet Federal
requirements in 42 CFR § 440.167, which require, among other things, that personal care
services be provided “in accordance with a service plan approved by the State.” Missouri
statutes and regulations require annual reassessments for the service plan to be approved by the
State (Missouri Revised Statute § 208.930(8)(1); 19 CSR §§ 15-8.200 (4) and (7)). Accordingly,
without an annual reassessment, there is no approved service plan, and thus, no valid and payable
service—even if, as the State agency asserts, the beneficiaries in question were eligible for
Medicaid coverage.

Noncompliance With State-Imposed Technical Requirements

State Agency Comments

With respect not only to our finding on the assessments and reassessments, but also to most of
our other findings, the State agency said that these findings did not constitute violations of
Federal law, “… but rather amount to allegations of noncompliance—or missing documentation
of compliance—with State-imposed technical requirements.” Specifically, the State agency said
that Federal law does not require annual reassessments, certification of timesheets, or beneficiary
training for consumer-directed services. The State agency added that “State law does not require
recoupment, and the State would not recoup, for these instances of noncompliance with state

                                                 9
rules…. It is inappropriate to take a federal disallowance for noncompliance with state law when
state law itself does not require recoupment for the noncompliance at issue.”

Office of Inspector General Response

Although Federal requirements do not provide specifications regarding the administration and
provision of personal care services, such specific requirements appear in State regulations, within
the context of more generalized Federal regulations.

Federal regulations (2 CFR part 225 (Office of Management and Budget Circular A-87, Cost
Principles for State, Local and Indian Tribal Governments)) establish cost principles and
standards for determining costs for Federal awards carried out through grants, cost
reimbursement contracts, and other agreements with State and local governments and federally
recognized Indian tribal governments. According to 2 CFR part 225, App. A, § C.1., “To be
allowable under Federal awards, costs must meet the following general criteria: … (c) Be
authorized or not prohibited under State or local laws or regulations.” Accordingly, the State
agency has a responsibility to comply with State laws and regulations. Therefore, in accordance
with these Federal regulations, we may conduct an audit to determine whether Federal payments
have been made in violation of Federal and/or State laws and regulations, and we may
recommend disallowance of Federal funding based on the findings of such an audit.

Missing Documentation Provided

State Agency Comments

The State agency said that it had located additional documentation that related to several of the
findings in our draft report; it forwarded this material to us at the same time as, but separate
from, its submission of its written comments. The additional documentation dealt with
assessments, reassessments, beneficiary training, and vendor certification. Regarding several of
the line items that we had sampled and found to be in error, the State agency said that these
represented allowable services provided to eligible beneficiaries. The State agency concluded
that this additional documentation, which had not been considered in the preparation of our draft
report, warranted a reduction in our recommended disallowance.

Office of Inspector General Response

With respect to the 11 sampled line items identified in our draft report as not complying with all
Federal and State requirements, we reviewed the additional documentation provided by the State
agency. 9 After reviewing the additional material, we accepted the documentation for 2 of the 11
sampled line items and revised our findings, and the associated dollar amount in our first



9
 The State agency presented us additional documentation after Whole Person responded to our draft report and after
submitting its own written comments on our draft report.

                                                       10
recommendation, accordingly. 10 We continue to question the remaining nine sampled line items
for various reasons including: (1) no additional documentation was provided, (2) the
assessment/reassessment was dated after the plan of care, and (3) the plan of care was signed
after the date of the claim.

Statistical Sampling Methodology

State Agency Comments

The State agency predicated its disagreement with our first recommendation on its disagreement
with our sampling and projection (extrapolation, in the State agency’s term) methodology. The
State agency described Whole Person as “… a generally compliant provider with little history of
prior sanctions” and added that projection was “… particularly inappropriate in light of the high
rate of compliance demonstrated by this draft audit report.” In addition, the State agency cited a
U.S. Department of Health and Human Services, Departmental Appeals Board (DAB) decision 11
and noted that “[t]he OIG [Office of Inspector General] itself rejects extrapolation when less than
six items in a 100-item sample are deficient.… If the OIG insists on recommending a
disallowance for the technical noncompliance purportedly identified in this draft audit report, it
should at least forego extrapolation where the rate of noncompliance is so low.”

Office of Inspector General Response

The methodology we used to select the sample and the methodology we used to evaluate the
results of that sample have resulted in an unbiased extrapolation (estimate) of the State agency’s
personal care services. As stated in New York State Department of Social Services, DAB No.
1358 (1992), “… sampling (and extrapolation from a sample) done in accordance with
scientifically accepted rules and conventions has a high degree of probability of being close to
the finding which would have resulted from individual consideration of numerous cost items and,
indeed, may be even more accurate, since clerical and other errors can reduce the accuracy of a
100% review.”

The State agency sample was selected according to principles of probability (every sampling unit
has a known, nonzero chance of selection). In Sample Design in Business Research,
W. Edwards Deming (1960) states: “An estimate made from a sample is valid if it is unbiased or
nearly so and if we can compute its margin of sampling error for a given probability.”




10
  From the 11 sampled line items (sample numbers 9, 28, 38, 40, 41, 42, 44, 45, 46, 86, and 91) identified in our
draft report as not complying with all Federal and State requirements, we accepted the documentation for 2 (i.e.
sample numbers 86 and 91) of the 11 sampled line items.
11
     Puerto Rico Department of Health, DAB No. 2385 (2011).

                                                         11
Courts have long approved the validity of the use of sampling and extrapolation as part of audits
in connection with Federal health programs. 12 In particular, “[p]rojection of the nature of a large
population through review of a relatively small number of its components has been recognized as
a valid audit technique.” 13 Courts have not determined how large a percentage of the entire
universe must be sampled to be held valid; 14 however, the type of sample used here—a simple
random sample—is recognized as a valid type of collection for extrapolation purposes. 15
Further, such statistical sampling and such a methodology may be used in cases seeking recovery
against States and individual providers or private institutions alike.16

The DAB decision cited by the State agency accurately reflects our accepted policy not to project
when we identify less than 6 errors in a 100-item sample. This final report has identified 9 errors
out of a statistically valid sample of 100 line items, so projection is entirely appropriate.




12
  See, e.g., New Jersey Dept. of Human Services, DAB No. 2415 (2011) (noting that courts and the DAB have long
upheld the use of statistically valid sampling methods as a basis for determining disallowance amounts; State of
Georgia v. Califano, 446 F. Supp. 404, 409-410 (N.D. Ga. 1977) (ruling that sampling and extrapolation are
recognized as valid audit techniques for programs under Title IV of the Act); Ratanasen v. California Dept. of
Health Servs., 11 F. 3d 1467, 1471-72 (9th Cir. 1993) (ruling that simple random sampling and subsequent
extrapolation were valid techniques to calculate Medi-Cal overpayments); Illinois Physicians Union v. Miller,
675 F. 2d 151, 155-56 (7th Cir. 1982) (ruling that random sampling and extrapolation were valid statistical
techniques to calculate Medicaid overpayments claimed against an individual physician).
13
     State of Georgia v. Califano, 446 F. Supp. 404, 409 (N.D. Ga. 1977).
14
     Michigan Department of Education v. U.S. Department of Education, 875 F. 2d 1196, 1206 (6th Cir. 1989).
15
     Ratanasen v. California Dept. of Health Servs., 11 F. 3d 1467, 1471-72 (9th Cir. 1993).
16
     Illinois Physicians Union v. Miller, 675 F. 2d 151, 155-56 (7th Cir. 1982).
                                                            12
APPENDIXES
                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicaid personal care services claims paid by the State of Missouri
and subsequently submitted for Federal reimbursement for The Whole Person, Incorporated
(Whole Person), during the period October 1, 2008, through June 30, 2009.

SAMPLING FRAME

Each claim for personal care services that a provider submits to the Missouri Department of
Social Services for payment can include multiple line items in which each line represents a
service by a particular personal care service provider delivered to one beneficiary. The sampling
frame consisted of 13,945 line items totaling $6,837,379 for personal care services paid to Whole
Person and subsequently claimed for Federal reimbursement during our audit period.

SAMPLING UNIT

The sampling unit was a line item.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 line items.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OIG/OAS), statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sampling frame. After generating 100 random numbers, we
selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the amount of unallowable payments.
             APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                  Sample Results

                                                        Number of        Value of
              Value of                  Value of        Unallowable     Unallowable
Frame Size     Frame       Sample Size  Sample            Items            Items
  13,945     $6,837,379       100      $55,731.35            9           $6,582.96

                     Estimated Value of Unallowable Items
             (Limits Calculated for a 90-Percent Confidence Interval)

                 Point estimate                        $917,994
                 Lower limit                           $203,279
                 Upper limit                         $1,632,709

             Estimated Value of Unallowable Items (Federal Share)
             (Limits Calculated for a 90-Percent Confidence Interval)

                 Point estimate                        $663,380
                 Lower limit                           $143,397
                 Upper limit                         $1,183,363
                                                                               Page 1 of 4


                   APPENDIX C: RESULTS FOR EACH SAMPLED ITEM
                                              Legend
 A        Assessments or reassessments not performed or not performed timely
 B        Missing or unapproved plans of care
 C        Beneficiary not trained


     Office of Inspector General Review Determinations for the 100 Sampled Items
 Item                                        Number of
Number       A          B         C           Errors
   1                                             0
   2                                             0
     3                                                0
     4                                                0
     5                                                0
      6                                               0
      7                                               0
      8                                               0
      9                               X               1
     10                                               0
     11                                               0
     12                                               0
     13                                               0
     14                                               0
     15                                               0
     16                                               0
     17                                               0
     18                                               0
                                 Page 2 of 4



 Item                Number of
Number   A   B   C    Errors
  19                    0
  20                     0
  21                     0
  22                     0
  23                     0
  24                     0
  25                     0
  26                     0
  27                     0
  28     X               1
  29                     0
  30                     0
  31                     0
  32                     0
  33                     0
  34                     0
  35                     0
  36                     0
  37                     0
  38     X               1
  39                     0
  40         X           1
  41     X   X           2
  42         X           1
  43                     0
  44     X   X           2
  45     X   X           2
  46     X   X           2
  47                     0
  48                     0
  49                     0
                                 Page 3 of 4


 Item                Number of
Number   A   B   C    Errors
  50                    0
  51                     0
  52                     0
  53                     0
  54                     0
  55                     0
  56                     0
  57                     0
  58                     0
  59                     0
  60                     0
  61                     0
  62                     0
  63                     0
  64                     0
  65                     0

  66                     0
  67                     0
  68                     0
  69                     0
  70                     0
  71                     0
  72                     0
  73                     0
  74                     0
  75                     0
  76                     0
  77                     0
  78                     0
                                                  Page 4 of 4


 Item                                 Number of
Number       A         B        C      Errors
  79                                     0
  80                                      0
  81                                      0

  82                                      0
  83                                      0
  84                                      0

  85                                      0

  86                                      0
  87                                      0

  88                                      0

  89                                      0

  90                                      0

  91                                      0

  92                                      0

  93                                      0

  94                                      0
  95                                      0
  96                                      0
  97                                      0
  98                                      0

  99                                      0
  100                                     0

TOTAL        6         6         1       13

Total Line Items with Errors              9

Line Items with More than One Error       4
 APPENDIX D: THE WHOLE PERSON, INCORPORATED, COMMENTS




 •••
: The Whole Person
•. People with Disabilities Leading Independent Lives




              September 12, 2012

             Mr. Patrick J. Cogley
             Regional Inspector General for Audit Services
             Office of Audit Services, Region VII
             601 East 1ih Street Room 0429
             Kansas City MO 64106

              Dear Mr. Cogley:

             The Whole Person has read Report Number A-07 -11-03170. We are in
             agreement with:

                •   For one line item, the timesheet was not certified
                •   For one line item, The Whole Person could not furnish
                    documentation supporting that the consumer of personal care
                    services had been trained as specified in State regulations

             If The Whole Person can answer any additional questions please feel
             free to contact Joan LaBelle, Chief Operations Officer or Cathy Lay,
             Director of Consumer Directed Services at 816-561-0304.

             Sincerely,

          .- ~
             David C. Robinson
             Chief Executive Officer




                                              Kansas City, MO · 3420 Broadway, Suite 105 · Kansas City, MO 641 I 1
                                                     phone 8 I 6.561.0304 ·fax 8 I 6.753.8163 · tollfree 800.878.3037
                                                                                           www.thewho1eperson.org
                                                                                                                                                 Page 1 of6


              APPENDIX E: STATE AGENCY COMMENTS




fs~Ciit"SER~IcEs
              }~ur Potential.   Our Support.
                                           JI!REMIAII W. (JAY) NIXON, QOVF.RNOR • BRIAN KINKADE, INTURIM Dt!UiCfOR

                                      P.O. llO'X ~~-, • BI~/"IAl)~·.o\i"   s-:-ur   Or! 1\..T BtiU•11'-l . •   .1-J flJ<(Su\l(.IJ''r   \1 0 o5 tO:!-I:.l'1
                                                                              \'."VvW,D'.... ~'M•<'.(J' • 571-7'\ 1·1R I5 • Yi'.).J.'il·-~~'i(>         ).


                                         November 15,2012


 Patrick J. Cogley 

 Re gional Inspector General for Audit Services 

 Office ofAudit Services, Region V ll 

 601 East 12th Street, Room 0429 

 Kansas City, MO 64106 


 Dear Mr. Cogley:

        Thank you for the opportunity to comment on the report prepared by the Office of
 Inspector General (010) entitled, "Missouri Claimed Federal Reimbursement for Unallowable
 Personal Care Services C laims Submitted by the Whole Person, Incorporated," Report Number
 A-07-1 1-03170. The Department ofSocial Services' (DSS) responses are below. The OIG
 recommendations are restated for ease of reference.

         Recommenda tion 1: The 0 10 recommends that the state agency refund $269,629 to the
 federal government.

         DSS Response: DSS strongly disagrees with this recommendation. The 0!0 concludes
 that 89 of the 100 sampled line items were entirely compliant with all state and federal
 requirements. Nonetheless, the O IG recommends recouping $269,629 in federal funds because
 ofa handful of isolated technical errors. Even for state requi rements for which Whole Person
 demonstrated a compl iance rate of 99 percent- timesheet certification and beneficiary training
 documentation rules- the OIG uses a single isolated error as a basis for extrapolating a large
 d isallowance recommendation.

        The OIG asserts thai 11 line items contained 15 deficiencies, and places each deficiency
 into one of four categories:

        Missing documentation of or noncompliance with assessment or reassessment
        reyuirements (7 line items)
        Missing or unapproved plans ofcare (6 line items)
        Timesheet not certified (I line item)
        Missing documentation of beneficiary training ( I line item)

        In concluding that these line items represent invalid claims for services, the 010
 misinterprets Missouri law and misapplies the State's personal care program requi rements and
 procedures. The cited deficiencies do not support the recommended refund, and the
                                               RELAY MISSOURI
                                      fOR liF.ARIN"G AND SrEECH IMPAIRED
                              1-800-735-2466 VOICE • 1-800-735-2966 HiX1               PHON~
                                                                                                     Page 2 of 6




extrapolation is inappropriate. The State also provided additional documentation to th e OIC.
today demonstrating compliance with state rules.

       A.      The OIG Misunderstands Missouri's Assessment Requirements.

        The OLG concludes that seven line items- nearly halfof the cited deficiencies- were
invalid hecause ofnoncompliance with the State's assessment requirements. Six of these line
items were rejected because the assessment or reassessment was dated more than one year prior
to the date of the plan o f care, and one of these line items was rejected because Whole Person
was wmble to locate the assessment or reassessment upon which the plan ofcare was based.

        Federal regulations do not require an annual assessment. See 42 C.F.R. § 440.167. In
addition, Missouri's state plan- which is the governing document determining the availability of
federal financial participation ("FFP"}-docs not require an annual assessment. As a result, the
federal refund recommendation should be reduced to the extent it is based on sample items
disallowed for lack ofa timely reassessment.

       The Missouri state plan is a "comprehensive written statement" that contains "all
information necessary" to determine the "basis fo r [FFP] in the State program." 42 C.F.R.
§ 430.10. The plan specifies that, for personal care services provided through the agency model,
Han assessment ofneed ... must be completed as needed to (re)determine the need for personal
care services." Att. 3.1-A, page 18cc. The stat~ plan section covering consumer-directed
personal care services, like the federa l regulations, is sil~nt about the need or timing of
reassessments. Missouri docs not construe its plan as requiring annual assessments, and a State
is entitled to deference in a reasonable interpretation of the requirements of its own state plan,
Virginia Dep 't ofMed Assistance. DAB 1838 (2002).

       The draft audit docs not cite federal law or the state p lan for the proposition that an
annual reassessment is required, but instead points to Missouri state law and regulations. See
Mo. Rev. Stat. §§ 208.906.5, 208.930.8(1); Mo. Code Regs. tit. 19, §§ 15-8.200(4), (7).
However, these provis ions do not govern when FFP is available from the federa l government,
and they do not address the conditions under which Missouri Medicaid will make a payment for
personal care services.

        In addition, Missouri has not interpreted its law as requiring annual face-to-face
reassessments. In 2003, the Dcparuncnt ofHealth and Senior Services (DHSS) announced that
annual face-to-face reassessments were not required for all beneficiaries (only for beneficiaries
who meet cenain criteria). DHSS explained that, with the exception ofcertain individuals, face­
to-face reassessment was to occur every other year, and an "annual reassessment may be
conducted by phone." Linda T. Allen, Dir., Section for Senior Services, DHSS, Memorandum
for llo me and Community Service Field Staff, EM-04-05 (Sept. II , 2003).

       In any case, the purpose ofthe assessment requirement~ is to ensure that the proper level
ofservices is provided to qualifying individuals. The OJG's find ings do not establish that the
Medicaid services were provided to individuals ineligible fo r the service. Because of the



                                                 2
                                                                                                       Page 3 of6




condition of the individuals receiving personal care services, a reassessment rarely shows
improvement such that the individual will no longer qualify for the services. The OIG's
recommended refund assumes in~orre~tly that persons who were not reassessed annually were
ineligible for the service, and projects the findings ofth e sample to all personal care recipients.
ror ~xample, Sample Item 44 ami Sample Item 45 represent services provided to the same
beneficiary on November 1-2,2008 and January 1-2,2009, respectively. The 01G recommends
disallowing both ~!aims for noncompliance with assessment requirements, despite a
reassessment dated January 21, 2009- just weeks after the services were rendered in Sample
Item 45- making it clear that both sample items reflect allowable services provided to an
eligible beneficiary. Similarly, the OIG recommends d isallowing Sample Item 28, despite the
existence o f timesheets proving that personal care services were in fact provided.'

       DSS also notes that the State has recently taken steps to ensure that reassessments are
completed annually. The Fiscal Year 20 13 state budget includes funding for providers to
conduct re assessments, each of which will be scheduled for completion based upon the
anniversary date o f the last assessment. Further, DHSS staff will review and approve all
reassessments submitted by providers.

        Fo r all of these reasons, an extrapolated refund based on untimely reassessments is
inappropriate. Annual assessments arc not a requirement under federal regulations, the state
plan, or state payment regulations, and the recommended amount is based on the incorrect
assumption that services were provided to individuals who were not eligible for those services.

        B. 	    None OfThe Allegations OfNoncompliance Witb State Rules Warrant
                Recoupment Under State Or rederal Law.

        Of the 15 purported deficiencies, 13 do not implicate any violation offederal law, but
rather amount to allegations of noncompliance--or missing documentation of compliance--with
State-imposed technical requirements. Federal law does not require annual reassessments (seven
item lines), certification oftimesheets (one item line), or beneficiary training for consumer­
directed services (one item line). Four of the six alleged plan o f care deficiencies arise from
purported noncompliance with wholly state-derived procedures.

        State law does not require recoupment, and the State would not recoup, for these
instances ofnoncompliance with state r ules. The OIG has cited only technical v iolations that in
no way suggest that valid services were not provided to eligible beneficiaries. ror example, the
010 recommends disallowing claims merely because documentation ofone aspect ofthe plan of
care, either a DA-3 or a DA-3c, could not be located. {A plan ofcare for self-directed services
generally consists ofa rorm DA-3, which documents the beneficiary's participation in
development o f the plan ofcare, and a Supplement !JA-3c, which details the care plan and the
tasks lo be completed by the personal care worker.) The OIG rejects Sample Item 42 for
noncompliance with state plan ofcare mles- presumably because ofa missing DA-3 or DA­

1
  DSS does not know whether the OIG auditors considered the documentation described in this
paragraph, so it provided this documentation to the 010 through the OIG's secure server today.
                                                                                                      Page 4 of6




3c-even th ough the tile included a timely reassessment and a DHSS Contact/Reporting Repon
indicating that the beneficiary, with the assistance ofhis live-in aide, participated in the
completion of a timely DA-3a and a timely DA-3 . It is clear not only that Sample Item 42
represent~ valid services provided to an eligible beneficiary, but also that the state plan of care
requirements were met, even ifa document has since been misplaced. Similarly, the 010
recommends disallowing Sample Item 40 because the plan ofcare was missing the signature
from the State's IICS worker, even th ough the file includes a timely reassessment, a DA-3 and
DA-3c signed by a nurse, and a fax from the HCS worker {dated a week after the plan ofcare is
dated) acknowledging receipt of the plan ofcare and authorizing the plan ofcare eJTcctivc
October I, 2007. 2 In addition, the OIG recommends d isallowing Sample Item 9 because of
purportedly missing documentation of beneficiary training, despite the fact that the beneficiary
started receiving consumer-directed services years before the beneficiary training regulations,
Mo. Code Regs. tit. 19, § 15-8.400(4), became effective in 2006. Nothing about this allegedly
missing training documentation suggests that the beneficiary was ineligible for the services or
that the services were invalid.

        For most o f the issues identified, the State has explained to the 0 10 that if it found
noncompliance during its quality assurance activities, the State would cite the issue as a
deficiency in a statement ofdeficiency report. Within I0 calendar days or receiving this report,
the provider would be required to respond with a Plan ofCorrection (POC), which must be
approved by the Stale, and the State would schedule a subse4uem visitlO determine if the POC
had been implemented effectively.

         In Department ofSocial Services, MO Healthnet Division v. Peace ofMind Adult Day
Care Center, the Missouri Coun of Appeals upheld an Administrative Hearing Commission
{AHC) decision rejecting DSS ' s recoupment sanction against a provider for failing to retain
required documentation. No. WD 74519, *14-21 (Mo. Ct. App. Sept. 25, 2012). The AHC
concluded that the five factors DSS must consider in determining whether to impose a
sanction_,;eriousness ofoJTcnse, extent of violations, history of violations, prior imposition of
sanctions, and prior provision or provider education- counseled against recoupment. ld.
Although the extent of the violation was "great," as the provider failed to retain documentation
supporting $487,462 in serv ices, the AHC concluded recoupment was inappropriate under state
law because the provider had no history of prior violations, the provider had a lready suffered
financial harm as a result of the loss of its provider status, there was no evidence the underlying
ser vices were not provided, and there was no evidence ofsubstandard or inadequate care caused
by the noncompliance. /d. The Court of Appeals upheld this rea5oning as wi thi n the AHC's
discr~tiun . fd.


        The missing assessment and the missing DA-3/DA-3c' s involve alleged noncompliance
with documentation retention requirements that are less serious than the missing documentation
at issue in P eace ofMind. The 0 10 cites only a handful ofmissing documents, Whole Person is
a generally compliant provider with little history ofprior sanctions, and there is no evidence that

2
 Again, DSS is unsure whether the 0 10 aud itors considered the documentation described in this
paragraph, so it provided tlus documentation to the O IG through its secure server today. ·


                                                  4
                                                                              4





4Office of Inspector General Note — We redacted the name of the person that initialed the timesheet from the State
agency’s comments.
                                                                                                     Page 6of6




    other federally funded programs. See. e.g., 42 C.F.R. § 431.865 (establishing a 3 percent
tolerance limit for eligibility errors io the Medicaid Eligibi lity Quality Comrol program); 42
C.F.R. § 483.2S(m) (requiring nursing facilities to be free of medication error rates of S percent
or greater. and be free of signi ficant medication errors). TI1c standard federal policy, when
overall performance is wiU1in the established lolcrance limits, is to seck recovery only for
noncompliance actually identified. and nat to exlrapofttlc the results ofa review to tile caseload
as a whole. Sec. e.g., 45 C.F.R. § I356.7 1 (in child welfare eligibility reviews, permitting
extrapolation only when error rate exceeds 10 percent). The 010 itself rejects extrapolation
when less than six items in a IOO·item sample are deficient. Puerto Rico Dep'l ofHealth, DAB
No. 2385, 12-1 3 (20 II). If the 0 10 insists on rccommendinga disallowance forthe technical
noncompliance purportedly identified in this draft audit rcporl, it should at least forego
extrapolation where the rate of noncompliance is so low.

       Rccommcnd:ttion 2: The OIG recommends that the state agency work with DHSS and
Whole Person to improve their policies and procedures for monitoring the personal care services
program for compliance with federal and state requirements.

        OSS Response: DSS agrees with this recommendation. The State is always working to
improve provider compliance with state and federal rules. and its policies and procedures are
being reviewed and modified as appropriate. The State is currently working with Whole 1>crson
to minimize future instances of noncompliance. i\s mentioned above, the Fiscal Year 2013 state
budget includes fwtding for providers to conduct annual reassessments. and DIISS staff wi 11
review and approve all reassessments submitted by providers.


                                              Sincerely.


                                       ~       Brian Kinkade
                                               Interim Director

BDK:JC:bsb




                                                  6




                                                                                                                  
